19

XIII.
I)
II)
III)
IV)
V)
VI)
VII)

APPENDIX

Summary Order US Court Of Appeals For The Second Circuit
9/27/2018 Opinion Order
01/22/18 Letter To Judge Because Of Mission Police Officers
Declaration Debra March 1/28/18
Co-Defendant Letter January 29th, 2018
Co-Defendant Answer To Amended Complain 6/01/17
Answer To Amended Complain On Behalf Of Defendants The City Of
New York And Commissioner Bratton
VIII) Stipulation Of Voluntary Dismissal As To Cross Claim
IX)
Defendant Letter January 12th
X)
Plaintiff Hand-Written Letter 8/7/18
XI)
Plaintiff Second Hand-Written Letter -7/20/2018
XII) Defendant Letter April 7th 2017
XIII) Opinion And Order 9/27/2018
XIV) Brief For Municipal Appellees 18-3199
XV) Notice Of Appeal
XVI) Plaintiff Response To Defendant Statement Of Undisputed Facts
Pursuant To Local Civil Rule 56.1
XVII) Plaintiff Opposition To Defendant Pan Am Equity/Brian Caulfield’s
Motion For Summary Judgment.
XVIII)Declaration Of Debra March 01/29/18
XIX) Order To Identify The Missing Police Officers-Ol/25/18
XX) Plaintiff Letter To Court 01/22/2018
XXI) Debra March Letter To The Court - 01/22/2018
XXII) Plaintiff Letter To The Court, 6 Police Officers Missing 1/16/18
XXIII) Defendant Letter To The Court - 10/20/17
XXIV) Defendant Letter To The Court - 1/20/18
XXV) Defendant Letter To The Court - 1/11/18
XXVI) Defendant Letter To The Court - 7/14/17
XXVII) Defendant City Of New York And Commissioner Bratton First Set
Of Interrogatories And Request For Production Of Document Of
Plaintiff
XXVIII) Unemployment Record, Medical Record, Release For Employment
Record, Release For Psychotherapy Notes Defendant asked for.
XXIX) Complaint
XXX) Defendant Commissioner Bratton Answer To Complain 4/28/17
XXXI) Plaintiff Letter To The Judge On 4/9/17

20

XXXIII) Co-Defendant Pan Am Equity And Brian Caulfield, Response To
Complain Of 3/31/17

_

_

_

CaseQa§g-d:§--§4g§0ltegifWPt

^t/?§2(£j^§g/^/g@g$4g471 of 7

MANDATE

1:16-CV-04430-RA-RWL

18-3199-cv
Nguedi v. Caulfield
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER

RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION “SUMMARY ORDER”).
A PARTY CITING TO A
SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the
City of New York, on the 6th day of May, two thousand twenty.
PRESENT:
GUIDO CALABRESI,
RICHARD C. WESLEY,
RICHARD J. SULLIVAN,
Circuit Judges.

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_______________
DATE FILED: May 27 2020

GERARD NGUEDI,
Plaintiff-Appellant,
v.
BRIAN CAULFIELD,

MANDATE ISSUED ON 05/27/2020

18-3199

CaseQa|§4§--§4^§0^4WDt

of 7

Defendant-Cross-Claimant-Appellee,
CITY OF NEW YORK, WILLIAM JOSEPH
BRATTON, POLICE OFFICER JOHN DOE,
#1 - 9, CHRISTOPHER CARLUCCI,
RAYMOND PHILLIPS, PETER
SCOURTOS,
Defendants-Cross-Defendants-Appellees.

FOR PLAINTIFF-APPELLANT:

Gerard Nguedi, pro se,
Woodbridge, VA.

FOR DEFENDANT-CROSS­
CLAIMANT-APPELLEE:

Karen M. Lager, Marks,
O'Neill, O'Brien,
Doherty & Kelly, P.C.,
Elmsford, NY.

FOR DEFENDANTS-CROSSDEFENDANTS-APPELLEES:

Tahirih M. Sadrieh,
Assistant Corporation
Counsel, Scott Shorr, of
counsel, for James E.
Johnson, Corporation
Counsel of the City of
New York, New York,
NY.

Appeal from a judgment of the United States District Court for the
Southern District of New York (Abrams, /.).

CaseC&S8-4$=§4$§0JteWWGt

UPON

DUE

of 7

CONSIDERATION,

IT

IS

HEREBY

ORDERED,

ADJUDGED, AND DECREED that the judgment of the district court is
AFFIRMED.
Appellant Gerard Nguedi, proceeding pro se, alleges that nine police officers
came to his apartment after his sister called to request a wellness check, forced
their way into his apartment, beat him without provocation, sedated him, and took
him to Bellevue hospital, in violation of Nguedi's civil rights. On appeal, Nguedi
challenges the district court's granting of summary judgment in favor of the City
of New York (the "City"), former New York Police Department ("NYPD")
Commissioner William Bratton, and Nguedi's building superintendent Brian
Caulfield on Nguedi's civil rights claims, and its dismissal of Nguedi's claims
against three individual police officers for failure to effect service. We assume the
parties' familiarity with the underlying facts, the procedural history of the case,
and the issues on appeal.
I.

Summary Judgment
We review a grant of summary judgment de novo, "resolv[ing] all

ambiguities and drawing] all inferences against the moving party."
3

Garcia v.

CaseQa§§-^--§43§0toifWDt

of 7

Hartford Police Dep't, 706 F.3d 120,126-27 (2d Cir. 2013). "Summary judgment is
proper only when, construing the evidence in the light most favorable to the non­
movant, 'there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law/" Doninger v. Niehoff, 642 F.3d 334, 344
(2d Cir. 2011) (quoting Fed. R. Civ. P. 56(a)).
To establish liability against the City for the acts of its employees, a plaintiff
must show that the violation of his constitutional rights was caused by an official
custom, policy, or practice. See Monell v. Dep't of Soc. Servs., 436 U.S. 658, 691
(1978). While Nguedi points to his own treatment as evidence of a custom, a
single case is insufficient to establish the existence of such a practice. See Mitchell
v. City of New York, 841 F.3d 72, 80 (2d Cir. 2016); Sarus v. Rotundo, 831 F.2d 397,
402 (2d Cir. 1987) (finding that there was no Monell claim where "the only relevant
evidence presented by appellees was the manner in which they themselves were
arrested").

Further, although Nguedi argues on appeal that the district court

disregarded "similar operations the NYPD had done in the past," he adduced no
evidence regarding such operations, nor did he raise this argument before the
district court. Nguedi's Br. at 30.
4

CaseGaS8-i$=§4$§0lft*WWDt

of 7

Nguedi's claims against the individual defendants also lack merit. Because
Nguedi failed to present any facts of Commissioner Bratton's "personal
involvement... in alleged constitutional deprivations," which "is a prerequisite
to an award of damages under § 1983," his claim against the Commissioner fails.
Spavone v. N.Y. State Dep't ofCorr. Sews., 719 F.3d 127, 135 (2d Cir. 2013) (internal
quotation marks omitted); see also Colon v. Coughlin, 58 F.3d 865, 874 (2d Cir. 1995)
("The bare fact that [a defendant] occupies a high position in the New York prison
hierarchy is insufficient to sustain [a] claim."). In order to maintain claims against
Caulfield - Nguedi's apartment building manager and a private citizen - Nguedi
was required to establish that Caulfield conspired with state actors.

See

Ciambriello v. County of Nassau, 292 F.3d 307,324 (2d Cir. 2002). But Nguedi points
to no evidence, apart from conclusory allegations, to support the existence of a
conspiracy or otherwise suggest that Caulfield engaged in a joint action with the
police officers to violate Nguedi's constitutional rights. Accordingly, the district
court did not err in dismissing the claims against Caulfield.
II.

Failure to Serve
We review a dismissal for failure to serve under Federal Rule of Civil
5

CaseG3i6-£§=@4$§0J?0WWDt t3<&i^^?§2QH^§g/^/£@g?4§476 of 7

Procedure 4(m) for abuse of discretion. Gerena v. Korb, 617 F.3d 197, 201 (2d Cir.
2010). Here, Nguedi's sole argument concerning the dismissal of the three named
officers for lack of service is that he was waiting to serve them until the City
identified all nine officers that Nguedi originally alleged participated in the illegal
arrest. This contention is meritless. To be sure, Nguedi previously requested
that the City provide him with the identities of the nine officers pursuant to
Valentin v. Dinkins, 121 F.3d 72, 76 (2d Cir. 1997). But after the City represented
that it could only identify three officers who matched the descriptions provided
by Nguedi, the magistrate judge ruled that the City had complied with its
obligations under Valentin and need not conduct a further search.

Because

Nguedi did not appeal that ruling to the district court, he has waived his right to
object to it now. See Caidor v. Onondaga County, 517 F.3d 601,604-05 (2d Cir. 2008).
Given the magistrate judge's order that the City was not required to make further
efforts to identify the additional officers, we find no abuse of discretion in the
district court's dismissal of Nguedi's claims for failure to serve the three identified
ones.

6

Case^5®-l§=94^Sofl*OWWDt

of 7

We have considered all of Nguedi's remaining arguments and find them to
be without merit. Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O’Hagan Wggg^jggrk

7

United States Cou^(tpT AppeaK,\Second Circuit
J SECOND u

PU1

f

No. 16-CV-4430 (RA)
UNITED STATES DISTRICT COURT SOUTHERN DISTRICT OF NEW YORK

Nguedi v. City of N.Y.
Decided Sep 27, 2018

No. 16-CV-4430 (RA)
09-27-2018
GERARD NGUEDI, Plaintiff, v. THE CITY OF NEW YORK, BILL BRATTON, AND BRIAN CAULFIELD,
Defendants.
RONNIE ABRAMS, United States District Judge

OPINION & ORDER
Plaintiff Gerard Nguedt, proceeding pro se, brings this action, pursuant to 42 U.S.C. §§ 1981 and 1983,
alleging excessive force, discrimination, and deliberately indifferent policies, as well as various claims arising
under state law. Defendants the City of New York and Bill Bratton, collectively, and Defendant Brian Caulfield
now move for summary judgment.1 For the reasons set forth below, Defendants' motions are granted.
l None of the individual police officers who allegedly committed the underlying constitutional violations have been
sewed and they are thus not parties to the current motions.

FACTUAL BACKGROUND
The following facts, construed in the light most favorable to Plaintiff, are undisputed unless otherwise noted.
See, e.g., Brod v. Omya, Inc., 653 F.3d 156, 164 (2d Cir. 2011).
2 2 These facts are drawn from the parties' submissions in connection with Defendants' motions for summary judgment,

including the Rule 56.1 Statements submitted by Defendants the City of New York and Bill Bratton ("City 56.1"),
Defendant Caulfield ("Caul. 56.1"), and Plaintiff (PI. 56.1"), as well as Plaintiffs Responses to Defendants' 56.1
Statements ("PI. Resp. City" and "PI. Resp. Caul."). Where facts in a party's Rule 56.1 statement are supported by
testimonial or documentary evidence, and denied only by way of a conclusory statement by the other party without
citation to conflicting testimonial or documentary evidence, the Court finds such facts to be true. See S.D.N.Y. Local
Rule 56.1(c)-(d). In light of Plaintiffs pro se status, the Court has also conducted an "assiduous review of the record" to
determine whether there is an evidentiary basis for his assertions. Monahan v. N.Y.C. Dep't of Corr., 214 F.3d 275, 292
(2d Cir. 2000).

In December of2015, Plaintiff was employed by the Federal Reserve Bank in New York. City 56.1 U 1. On
December 23, he arrived at work with a taser and pepper spray in his luggage. PI. Resp. City 56.1 f 6. Plaintiff
informed members of the Federal Reserve law enforcement unit that he had these items and asked if he could
keep them. PI. Resp. City 56.1 16. They told Plaintiff that the items were not permitted. PI. Resp. City 56.1 f 6.

casetext
1

Nguedi v. City of N.Y.

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

Plaintiff claims that former NYPD Commissioner Bratton then arrived and personally arrested him. PI. Resp.
City 56.1 U 6. This incident is the subject of another lawsuit pending in this district but not before this Court.
See Nguedi v. The Fed. Reserve Bank ofN.Y., No. 16-CV-636 (S.D.N.Y. filed Jan. 27, 2016).
Approximately two months later, on March 1, 2016, Plaintiffs sister, Sabine Nguedi, called emergency services
shortly before 7:00 p.m. because Plaintiff was not answering her phone calls. Caul. 56.1 ^ 15. Plaintiff was
posting messages on social media that troubled his sister, which led her to believe that he might be suicidal.
Caul. 56.1 K 15. At approximately 7:00 p.m., NYPD officers arrived at Plaintiffs apartment building and
requested entry to his apartment. Caul. 56.1 16. The officers informed Hector Vega, the building's doorman,
that Plaintiffs sister had called the police because he was schizophrenic and might be suicidal. Caul. 56.1 16.
Vega called Defendant Caulfield, the building manager employed by Pan Am Equities, and advised him that
police officers had requested entry to Plaintiffs apartment because his sister feared for his safety. Caul. 56.1 U
17. Caulfield directed Vega to comply with the officers' requests. Caul. 56.1 ^ 17. Vega retrieved a key from a
safe in the superintendent's office and accompanied the officers to Plaintiffs unit. Caul. 56.1 U 18.

3

Upon arriving at Plaintiffs apartment, Vega knocked on the door, identified himself, and informed Plaintiff that
NYPD officers had come to check on him out of concern for his safety. Caul. 56.1 If 19. Plaintiff refused to
open the door. Caul. 56.1 f 19. One of the officers then *3 knocked on Plaintiffs door, identified himself as a
police officer, and informed Plaintiff that he and the other officers were there to check on him. Caul. 56.1 f 20.
The officer also told Plaintiff that his sister had placed a call to emergency services because she was concerned
for his safety. Caul. 56.1 ^ 20. Plaintiff again refused to open the door. Caul. 56.1 1| 20.3 While Defendants
claim that Plaintiff threatened to hurt himself if the officers entered his apartment, Caul. 56.1 ^ 20, he asserts
that he "politely responded that [he] was okay and [informed them] that he didn't need any assistance," PI. Aff.
T[ 14, ECF No. 55-8. The officer advised Plaintiff that if he refused to open the door, they would be forced to
break it in order to enter the apartment. Caul. 56.1 f 20.
3 In his Rule 56.1 statement, Plaintiff says that the officers did not inform him why they were there. PI. 56.1 *[ G.
However, the evidence that he cites for this proposition includes his social media post from the evening in question, in
which he stated that police were at his door because "somebody called them to help me." Ex. 2, ECF No. 54-3. Plaintiff
does acknowledge in his statement of facts that when he called 911 while the officers were attempting to gain entry to
his apartment, he was then infonned that his sister had called the police out of concern for his well-being. But this
occurred after his social media post. Compare PI. Aff. U 16 with ffl] 20-21, ECF No. 55-8. In his deposition, Plaintiff
also testified that the officers informed him someone had called them when they knocked on his door, further
contradicting his statement of facts. See PI. Dep. 4:24-5:14, ECF No. 53-14. In his Rule 56.1 statement, Plaintiff further
avers that his sister "never said [he] was a danger to himself or others," PI. 56.1 ^ K, which similarly conflicts with the
evidence supplied by Plaintiff, namely the affidavit of his sister, Sabine Nguedi Aff. ^ 4, ECF No. 54-5. The Court thus
declines to credit these conclusory statements set forth by Plaintiff in his 56.1 statement. See Pape v. Bd. ofEduc. of
Wappingers Cent. Sch. Dist., No. 07-CV-8828 (ER), 2013 WL 3929630, at *1 n.2 (S.D.N.Y. July 30, 2013).

The officers then asked Vega to unlock the door. Caul. 56.1 Tf 21. Vega complied, but the officers could not
enter because Plaintiff had secured the door using a chain lock. Caul. 56.121. Plaintiff also pushed his weight
against the door. Caul. 56.11) 22. When Plaintiff briefly paused, one of the officers broke the chain lock with a
baton and the officers entered. Caul. 56.1 ^] 22.

casetext
2

Nguedi v. City of N.Y.

4

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

Defendants assert that Plaintiff began screaming and acting violently and combatively. Caul, 56.1 U 23. Plaintiff
avers that he screamed because the officers "started beating me with their batons and fists." PI. Aff. ^ 23, ECF
No. 55-8. He further claims that "Pan Am Equities staff was watching the entire time and trying to make any
curious neighbors go away. No one assisted me." PI. Aff. ^ 33, ECF No. 55-8. Emergency medical technicians
arrived and administered two *4 sedatives in order to subdue Plaintiff. Caul. 56.1 ^ 23. At approximately 8:00
p.m., Plaintiff was placed on a gurney and transported to Bellevue Hospital. Caul. 56.1 ^ 24.

PROCEDURAL HISTORY
On June 13, 2016, Plaintiff filed a Complaint commencing this action, alleging violations of 42 U.S.C. §§ 1981
and 1983, as well as state law. ECF No. 2. On May 15, 2017, Plaintiff filed the operative Amended Complaint.
ECF No. 27. After the parties completed discovery, Defendants filed the instant motions. ECF Nos. 47, 52.

STANDARD OF REVIEW
Federal Rule of Civil Procedure 56 authorizes a court to grant summary judgment if the movant establishes that
"there is no genuine issue as to any material fact and that the movant is entitled to judgment as a matter of law."
Roe v. City ofWaterbury, 542 F.3d 31, 35 (2d Cir. 2008). A fact is "material" if it "might affect the outcome of
the suit under the governing law," and it is "genuinely in dispute" if "the evidence is such that a reasonable jury
could return a verdict for the nonmoving party." Id. (citations omitted). In deciding such a motion, the Court
must "construe the facts in the light most favorable to the non-moving party and must resolve all ambiguities
and draw all reasonable inferences against the movant." Brod, 653 F.3d at 164 (citation omitted).

5

The moving party has the initial burden of demonstrating that no genuine issue of material fact exists. Brown v.
Eli Lilly & Co., 654 F.3d 347, 358 (2d Cir. 2011). If it satisfies this burden, "the opposing party must come
forward with specific evidence demonstrating the existence of a genuine dispute of material fact." Id.
"However, when the burden of proof at trial would fall on the nonmoving party, it ordinarily is sufficient for the
movant to point to a lack of evidence to go to the trier of fact on an essential element of the non[-]movant's
claim," in which case "the nonmoving party must come forward with admissible evidence sufficient to raise a
genuine issue *5 of fact for trial." CILP Assocs., L.P. v. PriceWaterhouse Coopers LLP, 735 F.3d 114, 123 (2d
Cir. 2013) (citation and alteration omitted). Furthermore, "it is well established that a court is ordinarily
obligated to afford a special solicitude to pro se litigants, particularly where motions for summary judgment are
concerned." Harris v. Miller, 818 F.3d 49, 57 (2d Cir. 2016) (per curiam) (citation and alteration omitted).

DISCUSSION
I. Section 1983 Claims Against the City of New York
4 4

In his Amended Complaint, Plaintiff indicates that his second and third causes of action—alleging discrimination and
failure to train or supervise, respectively—are brought pursuant to both Sections 1983 and 1981. See Am. Compl. at 18-

19. Claims asserted against state actors and municipalities, however, cannot be brought under Section 1981 and
accordingly those causes of action are dismissed against the City' and Defendant Bill Bratton. See Dtiplan v. City of
New York, 888 F.3d 612, 619-20 (2d Cir. 2018) (”[W]e now join the strong consensus of our sister Circuits in rejecting
[plaintiffs] argument and reaffirming Jett's ongoing viability."); Collymore v. City ofNew York, No. 16-CV-8270 (LTS),
2018 WL 3014093, at *5 (S.D.N.Y. June 14, 2018) ("However, when the defendant is a state actor, Section 1983 is the
exclusive remedy for violations of rights guaranteed under Section 1981. Thus, claims against individual defendants in

casetext
3

Nguedi v. City of N.Y.

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

their official capacity or against the City, must be brought under Section 1983. To the extent the Individual Defendants
are sued in their individual capacities, the claims involve official action taken under color of state law and thus are also
properly considered under Section 1983." (citations and alterations omitted)), appealfiled (July 18, 2018).

6

Plaintiff asserts all three of his 42 U.S.C. § 1983 claims against the City: excessive force, discrimination, and
deliberately indifferent policies. The same flaw is fatal to each: the complete absence of any evidence tending
to show the existence of a city custom or policy. Indeed, it is well-established that municipalities cannot be
liable merely because they employ a tortfeasor. See Bd. of Cty. Comm'rs ofBryan Cty. v. Brown, 520 U.S. 397,
403 (1997). Instead, a government body may be liable for a violation of Section 1983 only "if the governmental
body itself subjects a person to a deprivation of rights or causes a person to be subjected to such deprivation."
Connickv. Thompson, 563 U.S. 51, 60 (2011). A claim for municipal liability under Section 1983 thus requires
a plaintiff to "plead and prove three elements: (1) an official policy or custom that (2) causes the plaintiff to be
subjected to (3) a denial of a constitutional right." Wray v. City ofNew *6 York, 490 F.3d 189, 195 (2d Cir. 2007)
(citation omitted); accord Jones v. Town ofEast Haven, 691 F.3d 72, 80 (2d Cir. 2012).
With respect to the existence of a policy or custom, at the very least a plaintiff must demonstrate facts "tending
to support, at least circumstantially, an inference that such a municipal policy or custom exists." Santos v. New
York City, 847 F. Supp. 2d 573, 576 (S.D.N.Y. 2012). A plaintiff may satisfy this burden by showing any one of
the following: "(1) a formal policy which is officially endorsed by the municipality; (2) actions taken or
decisions made by government officials responsible for establishing municipal policies which caused the
alleged violation of the plaintiffs civil rights; (3) a practice so persistent and widespread that it constitutes a
custom or usage and implies the constructive knowledge of policy-making officials; or (4) a failure by official
policy-makers to properly train or supervise subordinates to such an extent that it amounts to deliberate
indifference to the rights of those with whom municipal employees will come into contact." Kaplan v. City of
New York, No. 14-CV-4945 (RJS), 2018 WL 2084955, at *8 (S.D.N.Y. Mar. 22, 2018) (citation omitted).

7

Even assuming, arguendo, that there exists a question of material fact as to whether Plaintiff suffered an
underlying constitutional violation, the City has demonstrated that it is entitled to judgment as a matter of law.
There is no indication whatsoever that any municipal employee acted pursuant to an official policy or custom,
nor is there any indicia of widespread conduct or any other fact that could give rise to an inference of the
existence of such a custom or policy. See Fabian v. City ofNew York, No. 16-CV-5296 (GHW), 2018 WL
2138619, at *6 (S.D.N.Y. May 9, 2018) (granting defendants summary judgment where "Plaintiffs presented]
no evidence of a formal policy or a pattern or practice of excessive force and denial of medical care" by the
NYPD); Kaplan, 2018 WL 2084955, at *8 (granting the city of New York summary judgment where *7
plaintiff failed to "put forth any evidence to create a dispute of material fact as to whether the allege
deprivations of constitutional rights at issue were caused by an official policy or custom of the City of New
York"); Guzman v. United States, No. ll-CV-5834 (JPO), 2013 WL 5018553, at *3 (S.D.N.Y. Sept. 13, 2013).
A single incident on which Plaintiffs constitutional rights were purportedly violated is simply insufficient to
give rise to an inference of the existence of a municipality custom or policy. See DeCarlo v. Fry, 141 F.3d 56,
61 (2d Cir. 1998) ("[A] single incident alleged in a complaint, especially if it involved only actors below the
policy-making level, does not suffice to show a municipal policy." (citation omitted)); Llerando-Phipps v. City
ofNew York, 390 F. Supp. 2d 372, 382-83 (S.D.N.Y. 2005).
5 5 Plaintiff also asserts in the Amended Complaint that certain officers stationed near his apartment complex honked

their horns at him and would "look out" for him. Am. Compl. 30. This is insufficient, however, to establish that there
existed a policy or custom which led to the alleged assault by officers on March 1, 2016. As noted previously, Plaintiff

casetext
4

Nguedi v. City of N.Y.

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

was also arrested on December 23, 2015. But that incident is the subject of a separate lawsuit not before this Court.
Indeed, Plaintiff claims in his papers opposing summary judgment that this prior arrest is "irrelevant and not related" to
the current suit, PI. Opp. at 7, ECF No. 57, an assertion buttressed by his statement of facts, in which he avers that the
instant action is "not about" the December 2015 arrest, "which is [instead] being litigated in another lawsuit," PI. 56.1 U
C. In any event, to the extent Plaintiff does rely on the December 2015 arrest in the current action, it is unavailing.
Another court in this district has already twice concluded that there existed sufficient probable cause to arrest Plaintiff
on that occasion, see Nguedi v. Fed. Reserve Bank ofN.Y., No. 16-CV-636 (GHW), 2017 WL 2557263, at *6-7
(S.D.N.Y. June 12, 2017), Nguedi v. Fed. Resen’eBankofN.Y, No. 16-CV-636 (GHW), 2017 WL 5991757, at *12
(S.D.N.Y. Dec. 3,2017), because he acknowledged, as he does here, that he approached police officers and informed
them that he was carrying a taser that is illegal under New York law, see PI. Aff. U 5, ECF No. 54-8. Accordingly,
Plaintiff is barred by collateral estoppel from asserting a false arrest claim based on that incident. See United States v.
U.S. Currency in the Amount of$119,984.00, 304 F.3d 165, 172 (2d Cir. 2002). To the extent Plaintiff relies on this
incident in further support of his claims of discrimination, excessive force, or failure to train, it is similarly unavailing.
There are no allegations that the previous arrest involved excessive force. See generally PI. Resp. City 56.1.
Furthermore, that probable cause existed to arrest Plaintiff precludes that prior arrest from bolstering his current claim
of discrimination. See Lynch ex rel. Lynch v. City ofMount Vernon, 567 F. Supp. 2d 459, 469 (S.D.N.Y. 2008) (granting
City' summary judgment where "there was no violation of plaintiffs constitutional rights" by officer defendants);
Rasmussen v. City ofNew York, 766 F. Supp. 2d 399, 409 (E.D.N.Y. 2011) (same); Hardin v. Meridien Foods, No. 98CV-2268 (BSJ), 2001 WL 1150344, at *8 (S.D.N.Y. Sept. 27,2001) ("Plaintiff claims that defendant officers harbored
an intent to discriminate when they arrested plaintiff. However, the Court has found that there was, in fact, probable
cause to arrest plaintiff based on evidence that was completely unrelated to plaintiff’s race.").

8

To the extent Plaintiff relies on the theory that the City failed to properly train or supervise officers, he
similarly has not adduced a single piece of evidence in support of this theory, aside from the single instance
alleged here in which he claims his rights were violated. See Triarto v. *8 Town ofHarrison, 895 F. Supp. 2d
526, 531-32 (S.D.N.Y. 2012) (explaining that to prevail on a failure to train theory a plaintiff must show that it
is "permanent and well settled" (collecting cases)).
Because Plaintiff fails to provide any evidence that gives rise to an inference of the existence of a custom or
policy, the City is entitled to summary judgment.

II. Section 1983 Claims Against Defendant Bill Bratton
Both of the Section 1983 claims asserted against Defendant Bratton—for excessive force and discrimination—
also suffer from the same fatal flaw: his lack of personal involvement. "It is well settled in this Circuit that
personal involvement of defendants in alleged constitutional deprivations is a prerequisite to an award of
damages under § 1983." Spavone v. N.Y. State Dep't of Corr. Servs., 719 F.3d 127, 135 (2d Cir. 2013) (citation
omitted); accord Ochoa v. Bratton, No. 16-CV-2852 (JGK), 2017 WL 5900552, at *3 (S.D.N.Y. Nov. 28,
2017). The personal involvement of a supervisory defendant may also be shown in the following ways: "(1) the
defendant participated directly in the alleged constitutional violation, (2) the defendant, after being informed of
the violation through a report or appeal, failed to remedy the wrong, (3) the defendant created a policy or
custom under which unconstitutional practices occurred, or allowed the continuance of such a policy or custom,
(4) the defendant was grossly negligent in supervising subordinates who committed the wrongful acts, or (5)
the defendant exhibited deliberate indifference to the rights of inmates by failing to act on information
indicating that unconstitutional acts were occurring." Colon v. Coughlin, 58 F.3d 865, 873 (2d Cir. 1995).

casetext
5

Nguedi v. City of N.Y.

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

6 6 The Court notes that it is an open question whether Colon remains good law following Ashcroft v. Iqbal, 129 S. Ct.
1937 (2009), which "may have heightened the requirements for showing a supervisor's personal involvement with
respect to certain constitutional violations." Allah v. Annucci, No. 16-CV-1841 (KMK), 2017 WL 3972517, at *6
(S.D.N.Y Sept. 7, 2017) (citation omitted); accord Reynolds v. Barrett, 685 F.3d 193, 205 n.14 (2d Cir. 2012). "Some
courts have simply concluded that, in the absence of Second Circuit precedent suggesting otherwise, they will continue
to apply the Colon factors," Allah, 2017 WL 3972517, at *6, while others have found that certain of the factors are no
longer valid, see Hollins v. City ofNew York, No. 10-CV-1650 (LGS), 2014 WL 836950, at * 13 (S.D.N.Y. Mar. 3,
2014). In light of the Circuit's continued reference to all of the Colon factors, the Court will consider all five. See
Shawn v. Prindle,66 \ F. App'x 16, 18 (2d Cir. 2016) (summary order); see also Corbett v. Annucci, No. 16-CV-4492
(NSR), 2018 WL 919832, at *6 n.5 (Feb. 13, 2018). In any event, even if all of the avenues under Colon remain viable,
Plaintiff cannot demonstrate a genuine dispute of material fact.

There are simply no facts supporting the notion that Defendant Bratton was in any way personally involved in
the events at hand. Plaintiff testified at his deposition that Defendant Bratton was not present on March 1, 2016,
when officers conducted the wellness check, PI. Dep. 131:18-19, ECF No. 53-13, and that his only interaction
with Defendant Bratton occurred during the December 2015 arrest at the Federal Reserve, which, as previously
noted, is instead the subject of a separate lawsuit, PI. Dep. 131:20-22, ECF No. 53-13.7 The only other
reference to Defendant Bratton in the Amended Complaint is that he "is the police commissioner for the City of
New York, with supervisory authority over all officers and operation of NYPD, including responsibility for
training, recruiting, and managing all NYPD officers." Am. Compl. ^ 3. But Plaintiff has failed to adduce any
facts showing that Defendant Bratton was either personally involved or is otherwise personally liable under any
of the Colon factors. His mere status as the supervisor of all NYPD officers, absent facts showing that he failed
to remedy a wrong, created a custom or policy, was grossly negligent, or exhibited deliberate indifference, is
simply insufficient. See Burns v. Griffin, No. 16-CV-782 (VB), 2018 WL 3059655, at *6-7 (S.D.N.Y. June 20,
2018) (granting supervisory defendant summary judgment because "the bare fact that a defendant occupies a
high position in the New York prison hierarchy is insufficient to sustain a claim" (quoting Colon, 58 F.3d at
874) (alterations omitted)); Corbett, 2018 WL 919832, at *7 (granting supervisory defendant's motion to
dismiss where there were "no factual allegations tying her to the constitutional violations at issue in this case");
10 Bradshaw v. City ofNew York, No.l5-CV-4638 (ER), 2018 WL 818316, at *8 *10 (S.D.N.Y. Feb. 9, 2018)
(granting supervisory defendant summary judgment because "personal involvement on a supervisory basis
requires that the defendant be faced with direct allegations that would permit an inference the Defendant had
acted or failed to act in any of the ways that would subject her to personal liability" and although plaintiff had
sent her letters detailing complaints related to his incarceration, there was no evidence that the defendant was
informed of the purported unconstitutional strip search (citation omitted)); Ochoa, 2017 WL 5900552, at *3-4
("plaintiffs conclusory allegations that, as the New York City Police Commissioner, Bratton was responsible
for training and supervising the Task Force—and was therefore negligent for its misdeeds, if any—does not
suffice to state a claim against Bratton"). III. Section 1983 Claims Against Defendant Brian Caulfield
7 8 As discussed above, Plaintiff previously filed a lawsuit alleging false arrest based on a December 23, 2015 incident,

which was allegedly carried out personally by Defendant Bratton, who was then the Commissioner of the NYPD. For
the reasons discussed at note 5, supra, this prior arrest is insufficient for Plaintiffs claims against Defendant Bratton to
survive the summary judgment stage.
8 Plaintiff also appears to assert a Section 1981 claim against Defendant Caulfield for discrimination. Caulfield is not a

state actor and accordingly Plaintiff may maintain a Section 1981 claim against him. See Collymore, 2018 WL
3014093, at *5. But to the extent Plaintiff asserts this claim, it obviously fails. First, from the Amended Complaint and

casetext
6

Nguedi v. City of N.Y.

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

the parties' moving papers it is not clear which activity within the scope of Section 1981 was the subject of the
discrimination allegedly committed by Caulfield. See 42 U.S.C. § 1981(a). Second, there is not a single fact evincing
any discriminatory intent on behalf of Caulfield. See Jones v. Beth Israel Hosp., No. 17-CV-3445 (GHW), 2018 WL
1779344, at *6 (S.D.N.Y. Apr. 12, 2018).

With respect to Defendant Caulfield, he is entitled to summary judgment on both of the Section 1983 claims
maintained against him—for excessive force and discrimination—due to his status as a private individual as
opposed to state actor. In order to establish liability under Section 1983, a plaintiff must satisfy two elements:
(1) that the defendant acted under color of state law; and (2) as a result of the defendant's actions, the plaintiff
suffered a denial of his federal statutory or constitutional rights. See Amis v. Cty. of Westchester, 136 F.3d 239,
245 (2d. Cir. 1998).
Ordinarily, a private party will only have acted under color of state law if "there is a sufficiently close nexus
between the State and the challenged action of the [private party] so that the action of the latter may be treated
as that of the State itself." Jackson v. Metro. Edison Co., 419 U.S. 345, 351 (1974). "A private actor may be
11 considered to be acting under the color of state * 11 law for purposes of Section 1983 if she was a willful
participant in joint activity with the State or its agents or conspire[d] with a state official to violate the
plaintiffs constitutional rights." Carrillos v. Inc. Vill. ofHempstead, 87 F. Supp. 3d 357, 371 (E.D.N.Y. 2015)
(citations omitted). To establish a joint action claim, "a plaintiff must show that the private citizen and the state
official shared a common unlawful goal; the true state actor and the jointly acting private party must agree to
deprive the plaintiff the rights guaranteed by federal law." Moritz v. Town of Warwick, No. 15-CV-5424 (NSR),
2017 WL 4785462, at *12 (S.D.N.Y. Oct. 19, 2017) (citation omitted). "The provision of information to or
summoning of police officers, even if that information is false or results in the officers taking affirmative
action, is not sufficient to constitute joint action with state actors for purposes of § 1983." Young v. Suffolk Cty,
705 F. Supp. 2d 183, 196 (E.D.N.Y. 2010). To demonstrate a conspiracy, a plaintiff must prove: "(1) an
agreement between a state actor and a private party; (2) to act in concert to inflict an unconstitutional injury;
and (3) an overt act done in furtherance of that goal causing damages." Ciambriello v. Cty. ofNassau, 292 F.3d
307, 324-25 (2d Cir. 2002) (citation omitted).
Here, there are no facts showing either that Caulfield engaged in joint action or a conspiracy with the police
officers who allegedly used excessive force against Plaintiff. The record is devoid of any evidence
demonstrating that there was a pre-arranged agreement between Caulfield and the police officers to violate
Plaintiffs constitutional rights. Indeed, Plaintiffs sister called 911 to express concern for his safety, which, the
police indicated, was the basis of their request for assistance from the employees of Pan Am Equities. This was
the motivation for Caulfield to instruct Vega, the building's doorman, to assist the officers. Similarly, during the
period that Plaintiff alleges he was assaulted, he acknowledges that the "Pan Am Equities employees" simply
12 * 12 stood by and failed to assist him. On this record, there is simply no dispute that Caulfield was not a state
actor.
Indeed, courts in this circuit have consistently rejected the argument now advanced by Plaintiff, including one
instance in which the facts were nearly identical to those here. In Roffman v. Knickerbocker Plaza Associates,
the plaintiff maintained a Section 1983 claim against the owners, managers, and employees of the apartment
building where she lived. No. 04-CV-3885 (PKC), 2008 WL 919613, at *4 (S.D.N.Y. Mar. 31, 2008). Even
though the defendants assisted in the unauthorized entry to the plaintiffs apartment by emergency medical
personnel who were concerned for her safety, the court soundly rejected the notion that the private actors had

casetext
7

Nguedi v. City of N.Y.

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

conspired or entered into joint action with the state, thereby rendering them liable under the statute. Id. at *910; see also Adickes v. S.H. Kress & Co., 398 U.S. 144, 152 (1970) (plaintiff entitled to relief under Section
1983 against private party only if she could prove that private party and police officer "reached an
understanding" to deny her service or cause her unlawful arrest); Shapiro v. City of Glen Cove, 236 F. App'x
645, 647 (2d Cir. 2007) (summary order) (declining to hold that private actor acted under color of state law
when "ample evidence show[ed] that the officials who searched [plaintiffs] house exercised independent
judgment rather than acting at [private actor's] direction); Moritz, 2017 WL 4785462, at *11-12 (granting
motion to dismiss because allegations were insufficient to establish that private actor acted under color of state
law, either under a conspiracy or joint action theory, even though there was a "friendship" between private and
state actors, which included regular communication); Bishop v. Best Buy, Co., 08-CV-8427 (LBS), 2011 WL
4011449, at *14 (S.D.N.Y. Sept. 8, 2011) (conspiracy claim not established on summary judgment where there
is "no evidence in the record that the defendant was involved in a conspiracy, preconceived plan, mutual
13 understanding or concerted action with" state actor) (alterations M3 omitted); Porter-McWilliams v. Anderson,
No. 07-CV-0407 (KMK) (LMS), 2007 WL 4276801, at *7 (S.D.N.Y. 2007) (no joint action found where the
plaintiff alleged only that the defendants provided detective and court with information but alleged no facts
suggesting that the detective was influenced in choice of procedure or was under control of the defendant when
he filed a criminal charge against the plaintiff), report and recommendation adopted (Dec. 3, 2007).
9 9

To the extent Plaintiff maintains any claims against Pan Am Equities, it is entitled to summary judgment for

substantially the same reasons as those discussed with respect to the City. See Tchatat v. City ofNew York, No. 14-CV2385 (LGS), 2015 WL 5091197, at *9 (S.D.N.Y. Aug. 28, 2015) ("Neither private employers nor municipalities are
liable under § 1983 on a theory of respondeat superior for the constitutional torts of their employees. In order to state a
claim, the plaintiff must prove that 'action pursuant to official policy of some nature caused a constitutional tort."'
(quoting Monell v. Dep't ofSocial Sen's, ofN.Y.C., 436 U.S. 658, 691 (1978))).--------

IV. State Law Claims
Plaintiff also brings causes of action for intentional infliction of emotional distress, false arrest, and assault.
The Court declines to exercise supplemental jurisdiction over these remaining claims.
Federal district courts have supplemental jurisdiction over non-federal law claims "that are so related to claims
in the action within such original jurisdiction that they form part of the same case or controversy under Article
III of the United States Constitution." 28 U.S.C. § 1367(a). A district court may, at its discretion "decline to
exercise supplemental jurisdiction" if it "has dismissed all claims over which it has original jurisdiction." Id. §
1367(c)(3). As a general rule, "if a plaintiffs federal claims are dismissed before trial, the state claims should
be dismissed as well." Brzakv. United Nations, 597 F.3d 107, 113-14 (2d Cir. 2010) (citation omitted).
Although the exercise of supplemental jurisdiction is discretionary, the ordinary case "will point toward
declining jurisdiction over the remaining state-law claims." In re Merrill Lynch Ltd. P'ship Litig., 154 F.3d 56,
61 (2d Cir. 1998) (quoting Cohill, 484 U.S. at 350 n.7). Accordingly, the Court declines to exercise
supplemental jurisdiction over Plaintiffs remaining claims.

*14 CONCLUSION
For the foregoing reasons, Defendants' motions for summary judgment are granted. The Court has been
mindful of Plaintiff s pro se status, but nonetheless finds that no genuine dispute of material fact exists. Because
the individual police officers were never served with the Amended Complaint, the claims against them are
dismissed without prejudice. See Fed. R. Civ. P. 4(m). The Clerk of Court is respectfully directed to enter
casetext
8

Nguedi v. City of N.Y.

No. 16-CV-4430 (RA) (S.D.N.Y. Sep. 27, 2018)

judgment in favor of defendants; terminate the motions pending at docket entries forty-seven, fifty-two, and
fifty-three; close the case; and mail a copy of this Order to Plaintiff. SO ORDERED. Dated: September 27,
2018
New York, New York
/s/

Ronnie Abrams
United States District Judge

casetext

9

